              PROGRAM MANAGEMENT OF THE
                DEFENSE SECURITY SERVICE
            CASE CONTROL MANAGEMENT SYSTEM


Report No. D-2001-019               December 15, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CCMS                  Case Control Management System
DSS                   Defense Security Service
                      Office of the Inspector General, DoD
Report No. D-2001-019                                               December 15, 2000
  (Project No. D2000AL-0159)

          Program Management of the Defense Security Service
                  Case Control Management System

                               Executive Summary

Introduction. This report discusses the program management of the Defense Security
Service Case Control Management System in response to a request from the Chairmen
of the Senate and House Committees on Armed Services. The Chairmen requested the
review because of reported problems with processing security investigations for
clearance determinations.

The Case Control Management System is an automated information system that guides
and controls the Defense Security Service Enterprise System for opening, tracking, and
closing personnel security investigation cases. The Enterprise System is a combination
of 24 distinct primary information systems, subsystems, applications, and interfaces
that share common data and connectivity.

The Defense Security Service believed that by establishing a paperless Enterprise
System of automated applications, it would avoid as much as $80 million in operating
costs and $900 million in reduced time for personnel security investigations. The
Enterprise System did not meet performance expectations when it was deployed on
October 28, 1998. Projected numbers of investigation case openings and closings did
not materialize and times for investigations were not substantially reduced.

Objectives. The overall audit objective was to review the program management of the
acquisition of the Defense Security Service Case Control Management System and the
actions being taken to correct problems in its development and deployment. In addition,
we evaluated the management control program related to the objective. See Appendix A
for a discussion of the audit scope and methodology and the review of the management
control program.

Results. The Defense Security Service did not effectively manage the high risk involved
in the integration of the Case Control Management System and the Enterprise System.
As a result, those systems had significant limitations and were insufficiently tested and
evaluated for operational effectiveness prior to deployment in October 1998, leading to
failures that degraded Defense Security Service productivity. As of September 2000,
project management had been greatly improved, but high risks remained. Resolution of
design problems is continuing and measurements for reliability and maintainability at
production objectives are still needed.

The Air Force Program Management Office has developed a phased acquisition strategy
to stabilize the Case Control Management System and the Enterprise System with
product improvements and incrementally migrate it to an improved Enterprise System
architecture between FY 2002 through FY 2008. However, the DoD needs to consider
alternative solutions for processing personnel security investigations before further
decisions are made on future system architecture.
The Defense Security Service appropriately identified personnel security investigations
as a material management control weakness area in FYs 1999 and 2000, and is taking
corrective actions. The DoD should continue to report management control weaknesses
in this area until all overdue personnel security clearances requiring reinvestigation are
eliminated. See the Finding section for details on the audit results and Appendix A for
details on the DoD management control program.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) and the Director,
Defense Security Service, prior to making further decisions on the future system
architecture, analyze whether the investment for the Case Control Management System
and the Enterprise System provides the best business solution when compared to
alternative solutions for opening, tracking, and closing personnel investigation cases.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) and the Director, Defense Security Service,
concurred with the report finding and recommendation. A discussion of the
management comments is in the Finding section of the report, and the text of the
management comments is in the Management Comments section.

Audit Response. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) and the Defense Security Service’s comments were
positive, but incomplete. The comments did not describe corrective actions taken or
planned, dates of actions taken, and estimated completion dates of planned actions for
implementing the recommendation. Therefore, we request that both the Assistant
Secretary of Defense and the Director, Defense Security Service, provide additional
management comments by January 18, 2001.




                                            ii
Table of Contents

Executive Summary                                                         i


Introduction
     Background                                                           1
     Objective                                                            2

Finding
     The Case Control Management System and the Enterprise System        3

Appendixes
     A. Audit Process
           Scope                                                         12
           Methodology                                                   13
           Management Control Program Review                             13
           Prior Coverage                                                14
     B. Acquisition Guidance                                             15
     C. Components of the Enterprise System                              17
     D. Enterprise System High Level Process View                        25
     E. Status of TRW, Inc., Recommendations by Priority Ranking         26
     F. Report Distribution                                              28

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                 31
     Defense Security Service                                            32
Background
           Personnel security investigations are essential for safeguarding classified
           resources. The Defense Security Service (DSS) manages and conducts these
           investigations for DoD. Annually, DSS closes more than 460,000 cases for
           clearance determinations by DoD central adjudication facilities.

           In a March 14, 2000, letter to the Inspector General, DoD, the Chairmen of the
           Senate and House Armed Services Committees requested that a review be
           conducted of the recent reports regarding alleged problems with the DoD
           process for granting security clearances. Citing an October 27, 1999, General
           Accounting Office report that traced one of the causes to a DSS automated
           information system, the Chairmen requested the Inspector General, DoD, to
           review the problems that DSS experienced in the development and operation of
           the Case Control Management System (CCMS).

           The CCMS is the automated information system that guides and controls the
           DSS Enterprise System of hardware and software applications for opening,
           tracking, and closing personnel investigation cases. The Enterprise System is a
           combination of 24 primary information systems, subsystems, applications, and
           interfaces that share common data and connectivity. The DSS believed that
           establishing a paperless Enterprise System would avoid as much as $80 million
           in operating costs and $900 million in reduced time for personnel security
           investigations. The Enterprise System did not meet performance expectations
           when CCMS was deployed on October 28, 1998.

           Prior to the General Accounting Office report, several groups were invited to
           review the Enterprise System and suggest improvements. Reviews of the
           acquisition were performed by a DSS Integrated Program Team in March 1999,
           an Air Force/MITRE Red Team, and a DoD support contractor, TRW, Inc.
           The Deputy Assistant Secretary of Defense for Security and Information
           Operations tasked the contractor to conduct an analysis of program management
           and oversight of the Enterprise System. The TRW, Inc., report1 made 37 short-
           and long-term recommendations for correcting and enhancing the system’s
           performance.

           In August 1999, the Air Force Standards System Group formally became the
           DSS Program Manager for the Enterprise System’s development and operations.
           To improve and modernize the DSS Enterprise System, the Air Force Program
           Management Office prepared an acquisition strategy that it believed would
           stabilize the Enterprise System and incrementally migrates the system to a target
           architecture. The DSS FY 2002 Program Objective Memorandum programs
           funds to support this acquisition strategy through FY 2007.




1
    TRW, Inc., report, “TRW’s Evaluation of the Defense Security Service’s Case Control Management
    System,” July 21, 1999.



                                                   1
    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) provides functional oversight for the DSS. Prior to September 2000,
    neither the CCMS nor the rest of the Enterprise System was designated as a major
    automated information system or a special interest initiative. Funds contractually
    obligated for the Enterprise System’s development and modernization amounted to
    $76 million from FY 1995 through FY 1999. Total planned development and
    operation costs for FY 2000 through FY 2007 are estimated to be $312 million.

Objective
    The overall audit objective was to review the DSS program management of the
    CCMS acquisition and the actions being taken to correct problems in its
    development and deployment. In addition, we evaluated the management control
    program related to the objective. See Appendix A for a discussion of the audit
    scope and methodology, prior coverage, and the review of the management
    control program.




                                       2
           The Case Control Management System
           and the Enterprise System
           The DSS did not effectively manage the high risk involved in the
           integration of the CCMS and its Enterprise System. Those systems had
           significant limitations and were insufficiently tested and evaluated for
           operational effectiveness prior to deployment in October 1998, leading to
           failures that degraded DSS productivity. As of September 2000, project
           management had been greatly improved, but high risks remained.
           Resolution of design problems is continuing and measurements for
           reliability and maintainability at production objectives are still needed.
           In addition, DoD will need to consider alternative business solutions
           before making further decisions on the future system architecture.

Mandatory Guidance
    The Clinger-Cohen Act of 1996, Office of Management and Budget Circulars,
    and DoD guidance for systems acquisition emphasize the importance of risk
    management when DoD organizations acquire information technology systems.
    Appendix B contains acquisition guidance for information technology systems.

Program Risk
    Before deploying the CCMS in October 1998, DSS did not appreciate the
    technical and acquisition challenges involved with developing and deploying an
    information technology system with multiple interfaces. DSS did not implement
    effective risk management measures when it decided to become the system
    acquisition integrator and program manager for the Enterprise System. Further,
    despite the key role of the CCMS in DSS operations that support virtually all
    DoD critical missions, minimal acquisition oversight and guidance was provided
    or offered by the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence). Also, DSS did not research and analyze
    alternative business processes to determine whether the DSS automated business
    function was the most cost-efficient and cost-effective solution for opening,
    tracking, and closing personnel security investigation cases prior to the
    development of the CCMS.

    Technical Challenges. The Enterprise System deployed by the DSS in
    October 1998 had significant design limitations. The Enterprise System is a
    combination of linked internal and external information technology subsystems,
    many of which are derived from commercial-off-the-shelf hardware and
    software products. Specifically, CCMS, as the project management component
    of the Enterprise System, cannot open, track, or close investigation cases if the
    applications for workflow, scanning and printing, and interface links to the
    Defense Clearance and Investigations Index and corporate database do not
    function properly. Appendixes C and D provide a description of the Enterprise
    System and a diagram of the Enterprise System process.


                                        3
        Workflow. The sole-source acquisition and deployment of “Documetrix
Workmanager,” a commercial-off-the-shelf workflow application, proved to be a
high-risk endeavor. “Documetrix Workmanager” required over 400 tasks to be
sequentially accomplished before a personnel security investigation could be
closed. When DSS deployed its Enterprise System, the sequential processing
routine limited CCMS processing efficiency. Case analysts could not access the
system to open investigation cases and define the work required. The DSS
Integrated Process Team found that the CCMS with “Documetrix Workmanager”
was taking four times longer to process cases than the paper-intensive process it
replaced. A TRW, Inc., report described the “Documetrix Workmanager” as a
major cause of CCMS inefficiency and operational problems.

       Files Automation and Scanning Subsystem. The Files Automation and
Scanning Subsystem, a commercial-off-the-shelf acquisition of hardware and
software applications, also proved to be high risk. The Files Automation and
Scanning Subsystem electronically passes paper and microfiche images to the CCMS
applications for case openings and makes adjudication reports after case closures.

However, when DSS deployed the Enterprise System, the Files Automation and
Scanning Subsystem failed to demonstrate operational effectiveness and reliability.
The quality of electronic images passed to the CCMS was inconsistent and
adjudication report processing was untimely. Further, DSS was aware of the
scanning and printing anomalies. A list of more than 40 unresolved efficiency
and reliability issues were submitted to the development contractor before the
Enterprise System was deployed. As a result, when DSS went to a paperless
operation, microfiche scans often had to be repeated. In addition, adjudication
reports took an average of 9 weeks to print after case analysts closed the cases.

        Defense Clearance and Investigations Index. After deploying the
Enterprise System, DSS discovered that user access to and from the Defense
Clearance and Investigations Index was being impeded. The Index could not
process user clearance queries because the CCMS workflow application would
continually return to the Index database searching for previously queried
records. As a result, traffic to and from the Index increased and subsequently
taxed the Index’s ability to respond to customers’ demands for information.

       DSS Corporate Database. On June 29, 2000, the Enterprise System
was shut down when a corporate database table reached its maximum capacity.
The cause of the shutdown was a design limitation, because tables in the
database could not exceed 4 million blocks of records. The DSS and the Air
Force Program Manager were unaware of the block sizing limitation. The Air
Force Program Manager and support contractors resolved the problem and
operations were resumed on July 10, 2000.

Program Management. In developing and deploying the Enterprise System,
DSS did not follow the systems acquisition guidance of the Office of
Management and Budget and DoD addressing risk avoidance, reduction, and
acceptance. Although analyses and plans concluded that the Enterprise System
was a complex acquisition and involved risks, DSS personnel were not prepared
to assume system acquisition management and integration responsibilities.



                                    4
                  Analyses and Designs. Systems analyses and designs prepared in 1989
           and 1994 identified the risks involved in the development of the CCMS and
           Enterprise System. In a May 1989 functional analysis document, a contractor
           described the CCMS and the Enterprise System as a large complex system that
           would take several years to develop and implement, and that database storage
           planning and design would be key elements that would affect the performance of
           Defense Investigative Service2-maintained databases. Further, the contractor
           recommended that the Defense Investigative Service include integration testing
           and parallel processing to mitigate risk.

           The Defense Investigative Service’s Strategic Implementation Plan, prepared in
           April 1994, described the CCMS case opening, tracking, and closing
           modernization as a massive development effort that far exceeded the
           Government’s capability. Also, a Defense Investigative Service technical report
           described the modernization effort as a complex undertaking that should be
           incrementally acquired.

                  System Acquisition. Office of Management and Budget Circular A-109,
           “Major Systems Acquisitions,” April 1976, implemented by DoD
           Directive 5000.1, “Defense Acquisition,” March 15, 1996, requires that
           agencies engage skilled and experienced acquisition program managers for
           system solutions. Selected personnel should be knowledgeable in research and
           development, operations, engineering, testing, construction, contracting,
           prototyping, production, business, budgeting, and finance.

           Further, the Circular provides seven objectives for managing systems acquisitions
           for avoiding, reducing, and accepting risks. Five of the seven objectives concern
           management controls. Specifically, acquiring organizations should:

                   •    provide solutions that fulfill a mission need, operate effectively in
                        intended environments, and demonstrate levels of performance and
                        reliability that justify the investments,

                   •    provide strong checks and balances by ensuring adequate system tests
                        and evaluations, and conduct tests and evaluations independent of
                        developers and users where practicable,

                   •    accomplish acquisition planning resulting from clear articulations of
                        agency mission needs,

                   •    develop acquisition strategies that include test and evaluation criteria,
                        methods for obtaining and sustaining competition in contracting, and
                        methods for analyzing risks, and

                   •    maintain capabilities to predict, review, assess, negotiate, and monitor
                        life-cycle costs, assess experience against predictions, and report
                        results of assessments to agency directors at key decision points.


2
    The Defense Investigative Service was renamed the Defense Security Service in November 1997.



                                                    5
Management Skills and Experience. Despite having been warned that its
proposed information technology system for managing personnel security
investigations was high risk, DSS developed the system without researching and
analyzing whether alternative functional solutions for opening, tracking, and
closing investigation cases existed for its business process. Assuming program
management and systems integration responsibilities for the information
technology acquisition, DSS did succeed in assembling a workable product.
However, the product obtained with Government-wide acquisition contracts from
hardware and software contractors was flawed, and according to TRW, Inc.,
“At best, the DSS Enterprise System is a working prototype.”

As the system program manager and integrator, DSS personnel did not have the
requisite training or experience in acquiring and integrating automated information
systems. The design, reliability, and maintainability discrepancies discovered
after the system was deployed can be traced to personnel lacking experience and
skills in research and development, operations, engineering, testing, construction,
contracting, prototyping, production, business, budgeting, and finance. Such
skills are obtained through structured classroom and on-the-job training. As
concluded by TRW, Inc., “Overall, [CCMS] looks like a business example for
how not to do a system acquisition.”

       Test and Evaluation. DSS did not stress test the CCMS and the
Enterprise System for opening, tracking, and closing investigation cases before
deploying it. Specifically, DSS did not deliberately try to “crash” the system to
determine its threshold limits and did not perform prolonged operational tests to
determine system reliability and maintainability.

Tests conducted prior to system deployment demonstrated only the functionality
of the CCMS and the Enterprise System and did not demonstrate its
effectiveness and suitability in an operational environment. As a result, DSS
did not identify unknown defects, such as the inaccessibility of the Defense
Clearance and Investigations Index and the limitations of sequential processing.
Further, DSS could not project the extent of known design limitations with the
Files Automation and Scanning Subsystem and the corporate database.

        Life-Cycle Costing. DSS did not cost out the phases of the Enterprise
System acquisition from development through disposal. Planned functions and
tasks were not identified by fiscal years over the system’s acquisition life. As a
result, funds for acquiring the Enterprise System did not translate operational
needs and requirements into an information technology solution or identify
resources for operating and maintaining the deployed system.

        Project Monitoring. DSS did not monitor the CCMS and Enterprise
System acquisition to review, assess, predict, and report results. Without a
life-cycle baseline for the system’s acquisition phases, cost, schedule, and
performance comparisons for measuring progress, computing deviations, and
projecting results could not be determined.




                                     6
           DSS measured progress in acquiring the CCMS and the Enterprise System
           based on fiscal year resources and obligated funds. The CCMS and the
           Enterprise System could not be tested and evaluated in an operational
           environment for effectiveness and suitability because available funds were not
           programmed for a test facility.

                   Documentation. DSS deployed the CCMS and the Enterprise System
           without testing the design configuration and operating documentation. By not
           conducting prolonged operational tests and evaluations to determine whether the
           automated information systems could be safely recovered and returned to service
           after failures, DSS did not know whether the systems could be suitably
           maintained. The TRW, Inc., report stated that it was “imperative” for DSS to
           develop an operations plan for resolving system bottlenecks and identifying
           sources of inefficiencies and malfunctions.
           TRW, Inc., also identified additional program baseline documentation required
           for effectively and efficiently maintaining and sustaining the CCMS and the
           Enterprise System. Specifically, TRW, Inc., indicated that reports and analyses
           were needed to address concept of operations, system requirements
           specifications, interface control definitions and maintenance plans.

Program Oversight
           The Clinger-Cohen Act requires Chief Information Officers to monitor and
           evaluate the performance of information technology programs and advise the
           heads of agencies whether to continue, modify, or terminate a program. The
           Office of Assistant Secretary of Defense (Command, Control, Communications,
           and Intelligence), the DoD Chief Information Officer, did not actively
           participate in the acquisition of the DSS Enterprise System because costs of the
           investment fell below cost thresholds3 established for classification as a major
           automated information system. In addition, as the Principal Staff Assistant
           responsible for the development, oversight, and integration of DoD policies and
           programs relating to security, the Office of the Assistant Secretary of Defense
           (Command, Control, Communications, and Intelligence) should have exercised
           acquisition oversight over DSS and chose not to do so. As a result, DSS was
           allowed to develop, deploy, and operate the CCMS and the Enterprise System
           for personnel security investigations without the benefit of program oversight
           and guidance.




3
    Major automated information systems are estimated to require program costs in any single year in excess
    of $30 million (FY 1996 constant dollars), and total program costs in excess of $120 million (FY 1996
    constant dollars), or total life-cycle costs in excess of $360 million (FY 1996 constant dollars).



                                                      7
           Since March 1999, the Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) has been more proactively involved with the
           DSS information technology acquisition. The Assistant Secretary planned to
           subject the DSS Enterprise System to DoD Directive 5000.1 acquisition
           guidance by designating it as a major automated information systems acquisition
           when he releases the revised list of designated major automated information
           system acquisition and special interest initiative programs.

Prior Report Recommendations
           Recommendations from the Air Force/MITRE Red Team4 and a report from
           TRW, Inc., ranged from establishing a program management office to system
           replacement and maintenance. Ranked by short-term and long-term significance,
           DSS was using these recommendations for follow-up and progress reporting on
           the General Accounting Office report’s5 recommendation to correct the CCMS.
           See Appendix E for the TRW, Inc., recommended actions and the progress DSS
           made in addressing them. In addition, DSS processed a CCMS change request to
           account for security investigations from request to case closure as a result of
           Inspector General, DoD, Report No. D-2000-134, “Tracking Security Clearance
           Requests,” May 30, 2000.

Management Activities
           Following the Red Team and TRW, Inc., recommendations, DSS began
           modifying its deployed automated information systems and baselining its system
           acquisition for Clinger-Cohen Act certification by the DoD Chief Information
           Officer. Since the Air Force and its contractors assumed program and
           functional responsibilities for the Enterprise System, DSS has made production
           advances in achieving its performance goal of closing more than 50,000
           investigations per month. From December 1999 through June 2000, case
           closure rates increased from 19,561 to 38,374 investigations per month.

           However, design limitations exist and demonstrated reliability and
           maintainability at planned production goals remain to be determined. The Files
           Automation and Scanning Subsystem improvements still require continuous
           human supervision for processing and printing paper documents. Also, the
           corporate database could shut down the DSS Enterprise System if closed
           investigations cases are not removed and archived. Further, closed
           investigations remaining in the database affect case processing efficiency by
           extending time required for opening, tracking, and closing active investigations.

           Although DSS was aware of the corporate database design limitation when the
           Enterprise System was deployed, DSS did not consider it a high priority.

4
    Air Force/MITRE Red Team report, “Red Team Recommendations-Transition Ahead,” July 14, 1999.
5
    General Accounting Office Report No. NSIAD-00-12, “Inadequate Personnel Security Investigations
    Pose National Security Risks,” October 27, 1999.



                                                    8
     However, as the cases processed increase, the database design limitation
     becomes an increasing concern. For example, the number of cases in process
     on June 30, 2000, was 433,620 compared to 337,378 on December 31, 1999.
     Further, the number of cases in process for more than 360 days was 69,260 on
     June 30, 2000, compared to 14,242 on December 31, 1999.

     As of April 2000, the corporate database contained 26 million records for
     opened and closed cases. System efficiency could be significantly increased if
     inactive records populating the database could be removed and archived. DSS
     and the Air Force Program Management Office are aggressively taking action
     to reduce the records in the Enterprise System’s corporate database. The Air
     Force Program Management Office estimates that 25 million records could be
     removed from the corporate database and archived.

Analysis of Alternatives
     The Air Force Program Management Office developed a phased acquisition
     strategy for maintaining and modernizing the CCMS and Enterprise System.
     The strategy involved introducing product improvements that will incrementally
     migrate it to an improved system architecture from FY 2002 through FY 2008.
     The strategy did not include an analysis of alternatives because the Air Force
     Program Management Office assumed that the business function for opening,
     tracking, and closing investigation cases would remain a DSS mission
     responsibility.

     Clinger-Cohen Act. Public Law 104-106, Division E, “Clinger-Cohen Act,”
     sections 5113 and 5123, “Performance and Results-Based Management,”
     requires agency heads to make decisions that affect information technology
     investments. Before investing in a new information system, heads of each
     executive agency are to determine whether the function in need of automation
     should be performed by the executive agency and, if so, whether the function
     should be performed by a private sector source under contract or by executive
     agency personnel. Also, the Act requires that agency heads analyze missions
     and, based on the analysis, revise mission-related processes and administrative
     processes, as appropriate, before making significant investments in information
     technology.

     Other Investigative Sources. Alternative automated business processes for
     managing personnel investigations may exist for opening, tracking, and closing
     personnel investigation cases. DSS plans to outsource more than 1 million
     requests for security investigation cases, or 30 percent of its estimated
     workload, to the Office of Personnel Management and private-sector contractors
     between FY 2000 and FY 2003. Although DSS will maintain accountability,
     the forwarded cases will not be opened and tracked in the CCMS and the
     Enterprise System. The Office of Personnel Management and the private-sector
     contractors will be responsible for managing the case investigations they receive
     and for maintaining project management systems for opening, tracking, and
     closing assigned cases.




                                         9
           Because alternative business processes for managing personnel investigations
           will be employed by the Office of Personnel Management and private-sector
           contractors, we believe the Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) and DSS should reassess whether the CCMS
           and the Enterprise System provide the most efficient and effective business
           solution. DoD personnel security clearance requirements that drive DSS
           workload investigation cases have been addressed by an integrated product team
           established by the Deputy Secretary of Defense to review the DoD personnel
           security investigation process. Alternative solutions have also been discussed at
           meetings with Government and contractor personnel familiar with the business
           process. Further, the Deputy Assistant Secretary of Defense for Security and
           Information Operations stated before a congressional subcommittee that
           alternatives would be analyzed before DoD commits to a future architecture. 6
           However, we found no indication of formal in-depth analysis of alternatives.

Conclusion
           DSS deployed the CCMS and its Enterprise System for opening, tracking, and
           closing investigation cases in October 1998 without first demonstrating system
           operational effectiveness and suitability. By not managing risks with
           accountable links to program definition, structure, design, assessments and
           reports, and oversight decision reviews, DSS acquired the CCMS and the
           Enterprise System with known and unknown design, reliability, and
           maintainability limitations. As of September 2000, DSS and the Air Force
           Program Management Office had restored system acquisition discipline.
           However, design inefficiencies still exist, and reliability and maintainability at
           planned production objectives still need to be demonstrated.

           The Assistant Secretary of Defense (Command, Control, Communications, and
           Intelligence) plan to designate the CCMS and the Enterprise System as a Major
           Automated Information System is a positive development. Further, the Deputy
           Assistant Secretary of Defense for Security and Information Operations
           indicated that alternatives would be analyzed before DoD commits to a future
           architecture. Action is needed now to lay groundwork for future decisions that
           need to consider alternatives for the CCMS and the Enterprise System target
           architecture. Because alternative Government and private-sector systems exist
           that may provide efficient and effective solutions for opening, tracking, and
           closing investigation cases, the target architecture needs to be reassessed to
           determine its validity.




6
    Testimony to the Subcommittee on National Security, Veterans Affairs, and International Relations,
    House Committee on Government Reform, September 20, 2000.



                                                     10
Recommendation, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) and the Director, Defense
    Security Service, prior to making further decisions on the future system
    architecture, analyze whether the investment for the Case Control
    Management System and the Enterprise System provides the best business
    solution when compared to alternative solutions for opening, tracking, and
    closing personnel investigation cases.

    Management Comments. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) and the Director, Defense Security
    Service, concurred with the recommendation. In addition, The Director attached a
    matrix to his comments with suggested editorial corrections to the report.

    Audit Response. The Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) and the Defense Security Service comments
    were positive, but incomplete. The comments did not specifically address
    corrective actions taken or planned, dates of actions taken, and estimated
    completion dates of planned actions for implementing the recommendation.
    Therefore, to facilitate the followup tracking that is required by DoD
    Directive 7650.3, we request that both the Assistant Secretary of Defense and
    the Director, Defense Security Service, provide additional management
    comments by January 18, 2001. The text of the management comments is in the
    Management Comments section. However, a matrix attached to the Director’s
    comments was not included in the final report because the suggested changes did
    not affect the results and conclusions of the audit.




                                      11
Appendix A. Audit Process

Scope
    Work Performed. We conducted this program audit from April 2000 through
    August 2000 and reviewed documentation dated from May 1989 through
    August 2000. To accomplish the audit objective we:

           •   interviewed officials and obtained documentation from the offices of
               the Assistant Secretary of Defense (Command, Control,
               Communications, and Intelligence); the Director, DSS; cognizant
               officials and personnel involved in the acquisition and operation of
               the CCMS and the DSS Enterprise System; the Air Force Program
               Management Office; and contractor personnel;

           •   reviewed available documents covering program requirements,
               program definition, program assessments and decision reviews,
               periodic reporting, and program management and oversight;

           •   reviewed ongoing and completed work correcting the deficiencies
               addressed in the General Accounting Office’s October 1999 report,
               “Inadequate Personnel Security Investigations Pose National Security
               Risks;” and

           •   evaluated the adequacy of management controls related to CCMS and
               DSS information technology acquisitions.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goals, and
    performance measure:

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
               infrastructure by redesigning the Department’s support structure and
               pursuing business practice reforms. (01-DoD-2.3)
           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)
                   Performance Measure 2.5.3: Qualitative Assessment of
                   Reforming Information Technology Management. (01-DoD-2.5.3)


                                       12
    DoD Functional Area Reform Goals. Most major DoD functional areas have also
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objectives and goals:

           Information Technology Management Functional Area.
           • Objective. Become a mission partner.
              Goal. Serve mission information users as customers. (ITM 2.1)

           •   Objective. Provide services that satisfy customer information needs.
               Goal. Build architecture and performance infrastructures. (ITM 2.1)
               Goal. Improve information technology management tools. (ITM-2.4)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by the Comptroller of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary. We did not use computer-processed information to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within and outside DoD. Further details are available upon
    request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.




                                       13
    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, and
    DoD 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information System (MAIS)
    Acquisition Programs,” March 15, 1996, acquisition managers are to apply
    program cost, schedule, and performance parameters to control objectives for
    implementing DoD Directive 5010.38 requirements. Accordingly, we limited
    our review to management controls directly related to the acquisition of the
    CCMS and the DSS Enterprise System. We also reviewed management’s
    self-evaluation of management controls applicable to the acquisition of DSS
    information technology.

    Adequacy of the Management Controls. Management controls were
    inadequate for the acquisition of the CCMS and the DSS Enterprise System.
    The control problems identified in this report, as they relate to the initial system
    deployment, were addressed by the DSS partnership with the Air Force and the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) plan to designate the DSS Enterprise System as a Major Automated
    Information System. However, as reported in the DSS Federal Managers’
    Financial Integrity Act Annual Statement of Assurance for FYs 1999 and 2000,
    DSS should continue reporting personnel security investigations as a material
    management control weakness until all overdue security clearances requiring
    reinvestigation are eliminated.

    Adequacy of Management’s Self-Evaluation. As part of the corrective action
    taken in response to the General Accounting Office audit, DSS developed an
    inventory of management control assessable units and recognized information
    technology as a major management control assessable unit. Risk assessments
    were completed and the DSS was reviewing them to develop a plan for
    conducting evaluations.

Prior Coverage
    During the last 5 years, the General Accounting Office issued one report on
    security clearance background investigations. Also, three other groups issued
    reports specifically addressing the CCMS and Enterprise System.

    •   General Accounting Office Report No. NSIAD-00-12 (OSD Case No. 1901),
        “Inadequate Personnel Security Investigations Pose National Security Risks,”
        October 27, 1999

    •   TRW, Inc., Systems Integration Group, Final Report, “TRW’s Evaluation
        of DSS CCMS,” July 21, 1999

    •   Air Force/MITRE Red Team report, “Red Team Recommendations-
        Transition Ahead,” July 14, 1999

    •   DSS Integrated Program Team Report, “A Near-Term Strategy to Correct
        Deficiencies in the Enterprise System,” May 1999



                                         14
Appendix B. Acquisition Guidance
    The Clinger-Cohen Act of 1996, Office of Management and Budget Circulars,
    and DoD guidance for systems acquisitions emphasize the importance of risk
    management when addressing policies and procedures for system and
    information technology acquisitions.

Clinger-Cohen Act of 1996
    The Clinger-Cohen Act of 1996 requires agencies to design and implement a
    process for assessing and managing the risks of information technology
    acquisitions to include analyzing, tracking, evaluating, and reporting on risks
    and results of all major information technology capital investments.

Office of Management and Budget Circulars
    Circular A-109. Circular A-109, “Major Systems Acquisitions,” April 1976,
    provides acquisition management objectives and a management structure that
    agencies should follow to ensure the effectiveness and efficiency of the
    acquisition process.

    Circular A-130. Circular A-130, “Management of Federal Information
    Resources,” February 8, 1996, requires agencies to establish management
    oversight mechanisms that determine whether the system continues to fulfill
    mission requirements and to ensure that major information systems proceed in
    a timely fashion towards agreed-upon milestones.

DoD Guidance
    DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
    March 15, 1996, establishes a disciplined, yet flexible, management approach
    for acquiring quality products. The Directive emphasizes that rigorous internal
    management control systems are integral elements of effective and accountable
    program management and that material management control weaknesses are
    identified through deviations from approved system acquisition program
    baselines.

    DoD Directive 8000.1. DoD Directive 8000.1, “Defense Information
    Management (IM) Program,” October 27, 1992, establishes policy and assigns
    responsibilities for the implementation, execution, and oversight of the
    Defense Information Management Program. The Directive requires a
    disciplined life-cycle approach to manage information systems to effectively
    execute DoD missions.




                                        15
DoD Regulation 5000.2-R. DoD Regulation 5000.2-R, “Mandatory
Procedures for Major Defense Acquisition Programs (MDAPs) and Major
Automated Information Systems (MAIS) Acquisition Programs,”
March 15, 1996, requires every system acquisition program to establish cost,
schedule, and performance objectives and thresholds at system acquisition
program initiation. The Regulation also requires that program managers use a
management process to translate operational needs and requirements into a
system solution with accountable links to program definition, structure, design,
assessments and reports, and oversight decision reviews.




                                   16
Appendix C. Components of the Enterprise
            System
    The following subsections provide an overview of each component of the DSS
    Enterprise System.

Case Control Management System
    The CCMS is the centerpiece of the overall DSS Enterprise System. As the
    Enterprise System’s guidance and control element, the CCMS provides the
    means for collecting and disseminating personnel investigation data. The
    CCMS automated the paper-intensive, manual activities performed by the DSS
    Operations Centers, Baltimore, Maryland, and Columbus, Ohio. CCMS
    receives, stores, and acts upon personnel security requests, such as personnel
    security updates and requests for investigation. Investigation requests require a
    scope determination on whether to proceed with a field investigation. If an
    investigation is necessary, CCMS automatically opens a case and generates the
    required leads. CCMS provides personnel security analysts with the required
    tools to manage personnel security actions and investigations. The CCMS and
    the DSS Enterprise System consist of a central corporate database and an
    automated case workflow process that feeds information into the CCMS through
    several interface connections.

Files Automation and Scanning Subsystem
    The Files Automation and Scanning Subsystem is the second largest element of
    the DSS Enterprise System and manages documents that are maintained in the
    DSS corporate database. Paper and microfiche documents are scanned,
    converted to electronic image files, and stored on magnetic drives referred to as
    the Files Automation and Scanning Subsystem towers. Once the documents are
    on the towers, DSS personnel, using CCMS and Files Automation and Scanning
    Subsystem applications, can access them. The Files Automation and Scanning
    Subsystem also provides a distribution subsystem, forms processing subsystem,
    and a backup subsystem. The distribution subsystem creates reports containing
    discrete data from the DSS corporate database and Files Automation and
    Scanning Subsystem image files and distributes them on several mediums:
    internet web sites, facsimile, paper, and computer output to microfiche. The
    forms processing subsystem provides forms recognition and data entry to
    convert paper forms to discrete data that can be stored in the corporate database.




                                        17
Defense Clearance and Investigations Index System
     The Defense Clearance and Investigations Index system provides a central index
     of clearance and investigative information originated by authorized DoD
     agencies. An Internet web forms version, an Internet dynamic version, and a
     system client-server version of the application provide the information. The
     Defense Clearance and Investigations Index supplies information on people,
     companies or events, and associated tracings to authorized agencies. These
     agencies include:
             • United States Military (Army, Navy, Air Force, and Coast Guard)
             • National Security Agency
             • Defense Security Service
             • Inspector General, DoD
             • Defense Office of Hearings and Appeals
             • Defense Logistics Agency
             • Washington Headquarters Service
             • Defense Intelligence Agency

     Other agencies (some outside DoD) also have access to the Defense Clearance
     and Investigations Index system. Overall, there are approximately 2700 users of
     the Defense Clearance and Investigations Index system worldwide. The tracings
     include dossiers, aliases, national agency checks, and personal clearances.
     Authorized users can perform a variety of functions including query, add,
     delete, update, and print. In addition, users can request statistical, file demand,
     batch error, and the Defense Clearance and Investigations Index Disclosure
     Accounting System reports.

Industrial Security System
     The Industrial Security System assists in monitoring DoD contractors who have
     access to classified information and tracks the issuance, maintenance, and
     management of contractor clearances. The Industrial Security System, a
     UNIX-based Oracle database application, uses tables within the DSS corporate
     database. The Industrial Security System provides industrial security representatives
     and others with proper access privileges to data on cleared and uncleared DoD
     contractor facilities. The data enable DSS to track the security clearances of Defense
     contractors and to measure the performance of industrial security representatives.
     The Industrial Security System is comprised of the Industrial Security System
     Central, an application with the DSS corporate database, and the Industrial Security
     System Field, an application residing on a desktop or notebook computer using a
     Microsoft Access database. Industrial security representatives fax or email facility
     database changes to the DSS Defense Industrial Security Clearance Office and use
     the Industrial Security System Central update function to make additions, changes, or
     deletions of the facility database in the corporate database.


                                         18
Electronic Personnel Security Questionnaire System
     The Electronic Personnel Security Questionnaire System simplifies the
     information reporting process required to conduct background investigations.
     The function of Electronic Personnel Security Questionnaire is to streamline the
     data-gathering process so that complete and accurate information is collected
     and validated rapidly. The Electronic Personnel Security Questionnaire System
     is an automated data entry and validation system designed to allow personnel
     and security officers to quickly and easily enter the data required. The system
     validates the data, prints copies of the appropriate forms, and generates export
     diskettes for the security officer. The Electronic Personnel Security
     Questionnaire was designed specifically to eliminate rejection of incomplete or
     inaccurate investigation requests. Features in the Electronic Personnel Security
     Questionnaire notify users when the information is mandatory and what the
     format should be. Security officers do not submit personnel information for
     processing until the Electronic Personnel Security Questionnaire is error free
     and complete.

Automated Credit Manager System
     The Automated Credit Manager system uses telephone modem connections to
     the three commercial credit reporting agencies. The Automated Credit Manager
     system is used to gather credit report information, which is regularly requested
     as part of the security clearance investigation process, on individuals under
     investigation. The Automated Credit Manager system transmits credit
     information requests, receives return credit reports, and places the collected data
     into the DSS Enterprise System’s corporate database for CCMS processing.

Financial Crimes Enforcement Network System
     The Financial Crimes Enforcement Network system application uses the
     computer supporting the Automated Credit Manager system and a separate
     dedicated secure modem to run batch queries that conduct automated checks of
     Financial Crimes Enforcement Network database records. Inquiries are
     primarily run against the Social Security Numbers of personnel under DSS
     investigation, but can also be run against names, dates of birth, and partial
     Social Security Numbers. The Financial Crimes Enforcement Network is a
     Department of the Treasury organization that provides a Government-wide,
     multi-source intelligence and analytical network to support the DSS, law
     enforcement, and regulatory agencies in detection, investigation, and
     prosecution of financial crimes.




                                         19
Field Information Management System II
    The Field Information Management System II is an automated system loaded in
    field agents’ laptop computers that provides tools to:
            • Create reports of investigation
            • Submit leads and other case data
            • Produce summary reports of case data
            • Obtain data from the Personnel Investigation Center
            • Manage investigative agents’ data and supporting information

    The Field Information Management System II manages the electronic data link
    used to send and receive data from agent laptops to DSS. The system was
    created to support DSS regional and field offices in their efforts to process cases
    as DSS field agents produce them. The Field Information Management System II
    allows data to be transferred between field agents, field offices, regional offices,
    and the DSS Personnel Investigation Center located in the Operations Center,
    Baltimore, Maryland.

Field Information Management System - Middleware
    The Field Information Management System-Middleware software application
    allows CCMS to be used with the Field Information Management System II to
    convert CCMS-generated leads into Field Information Management System II
    action lead sheets that can be sent to the field electronically. The Field
    Information Management System-Middleware also translates incoming
    electronically transmitted Field Information Management System II reports of
    investigations into a CCMS-readable format.

File Control Management System
    The File Control Management System is a computer application hosted on the
    CCMS server that allows authorized users to request dossiers from DSS
    repositories. The File Control Management System also provides the
    mechanism for a user to input data from paper and telephone requests into its
    corporate database. The File Control Management System verifies authorized
    user rights and permissions against tables in the corporate database. When a
    user demands a file, the File Control Management System checks the corporate
    database to determine whether a file from the repository has been scanned into
    electronic form. When a file exists, the File Control Management System
    interfaces with the Files Automation and Scanning Subsystem to access data
    relating to the file demand. If the demanded file is not in the Files Automation
    and Scanning Subsystem repository, a “pick ticket” displaying all of the
    information that is required for a file clerk to pull the microfiche is printed in
    the DSS Investigative Files Branch. After the file has been scanned, the
    corporate database is updated and the file demand is processed. The File


                                        20
     Control Management System - Files Automation and Scanning Subsystem
     interface allows the Files Automation and Scanning Subsystem to track and
     monitor the progress of a file demand. User/Agency demands for file data are
     ultimately captured in the Disclosure Accounting System. The File Control
     Management System was designed to replace manually routing the paper to
     different personnel to process a single file demand.

Disclosure Accounting System
     The Disclosure Accounting System is an automated application hosted on the
     CCMS server that records file release data and other disclosure information in
     support of the Privacy Act, the Freedom of Information Act, and personnel at
     the DSS. The Disclosure Accounting System is run against data as an element
     of the corporate database and is used by DSS to record the release to DoD and
     non-DoD agencies of personal information used in DSS Personnel Security
     Investigations and the Defense Clearance and Investigations Index. The
     Disclosure Accounting System records who received the information, the reason
     for release, the releasing DSS office, the type of information released, and the
     release date. The Disclosure Accounting System database is populated from
     information passed from the File Control Management System to the Files
     Automation and Scanning Subsystem and from the Files Automation and
     Scanning Subsystem to the Disclosure Accounting System.

Authorized File Requesters
     The Authorized File Requesters is a database-centered application hosted on the
     CCMS server that contains a listing of authorized agencies and personnel who
     may request DSS investigative dossiers. The Authorized File Requesters’
     application can also be used to run queries to search for a particular agency
     using a five-digit accreditation account number.

Reject Tracking System
     The Reject Tracking System is an automated computer application hosted on the
     CCMS server that enables DSS to track paper requests that have been rejected
     and returned by DSS to requesters prior to their input to the CCMS. The Reject
     Tracking System application generates notification letters to requesters and
     identifies all of the deficiencies that caused the request to be rejected. The
     Reject Tracking System tracks suspense dates on actions requiring followup and
     also allows for a query capability by Social Security Number.




                                        21
User Community Management System
     The User Community Management System is an automated application hosted
     on the CCMS server that is used to grant access permissions and user rights to
     personnel with a need to access the CCMS and the Enterprise System. The
     User Community Management System records access to the various DSS
     automated information systems, and applications in the corporate database.

Automated Scoping Guide System
     The Automated Scoping Guide System is a database-centered application hosted on
     the CCMS server that provides a listing of most communities by zip code and
     designates which DSS field offices are responsible for investigative work in each
     area. The application includes remarks sections that clarify scoping responsibilities
     and other pertinent information about specific communities. The CCMS uses the
     database information to automatically scope investigations in workflow, and users
     can access the scoping guide from DSS local area network workstations to
     manipulate data.

DSS Toolbar
     The DSS toolbar is a custom Graphical User Interface application that serves as a
     front end user entry point for accessing all of the applications connected to the DSS
     corporate database. The Graphical User Interface connects to the DSS-developed
     User Community Management System and the Commercial-off-the-Shelf Password
     Manager software program, both of which are resident on the corporate database
     servers. The Graphical User Interface requires the user to log on to the database
     with a controlled identification number and password.

Lead Reconciliation Tool
     The Lead Reconciliation Tool is an automated application tool that reconciles the
     field offices’ databases with the DSS corporate database. The Lead Reconciliation
     Tool also contains an external gateway File Transfer Protocol script that is run from
     a desktop workstation and a Lead Reconciliation Tool component field application.
     The Lead Reconciliation Tool captures pertinent DSS corporate database
     information at the DSS Operations Center relating to Field Information Management
     System II-connected field offices and compares case data and statuses with the Field
     Information Management System II system-generated information. The Lead
     Reconciliation Tool gateway connects to the Field Information Management
     System II system and processes pending and closed Lead Reconciliation Tool data
     and File Transfer Protocol’s consolidated packages of information via a DSS Link
     connection to each DSS field office operational location. DSS field offices perform
     data reconciliation, case management, and statistical reporting functions using the
     field component of the Lead Reconciliation Tool application.



                                         22
Internal File Transfer Protocol Server
     The DSS Internal File Transfer Protocol Server is a stand-alone, DSS
     Intranet-connected computer available inside the DSS firewalls for DSS local
     area network File Transfer Protocol use. Several of the DSS Enterprise System
     applications use File Transfer Protocol to transfer and handle data files. At
     DSS, File Transfer Protocol actions are accomplished with manual and
     automated connections. File Transfer Protocol is a standard protocol that is the
     simplest way to exchange files between connected computers.

External File Transfer Protocol Server
     The DSS External File Transfer Protocol Server is a stand-alone, DSS
     Internet-connected computer available outside the DSS firewalls for external
     File Transfer Protocol use. File Transfer Protocol is a standard protocol that is
     the simplest way to exchange files between computers connected on the Internet.
     At DSS, File Transfer Protocol actions are accomplished with manual and
     automated connections.

External Office of Personnel Management Gateway
     The external Office of Personnel Management gateway is hosted on a computer
     at DSS that provides a dedicated communications link supporting data exchange
     between the DSS Defense Clearance and Investigations Index and the Office of
     Personnel Management’s Security Suitability Investigations Index. Although
     housed on a separate computer, the gateway is an essential part of the Defense
     Clearance and Investigations Index and the Security Suitability Investigations
     Index applications.

External Immigration and Naturalization Service Gateway
     The external Immigration and Naturalization Service gateway is hosted on a
     computer at DSS that provides a dedicated communications link supporting data
     exchange between the Immigration and Naturalization Service master index and
     the DSS corporate database. Immigration and Naturalization Service files
     contain the location of naturalization certificates, citizenship certificates, visas,
     records of aliens, and other information that is checked as part of the national
     agency check process when conducting security investigations. The gateway
     also supports data exchange for Financial Crimes Enforcement Network
     information obtained by DSS as a liaison on behalf of the Immigration and
     Naturalization Service.




                                          23
External Interface to the Central Intelligence Agency
     The External Interface to the Central Intelligence Agency is a batch computer
     application process that involves operator-assisted manual actions and automated
     computer actions. The application processes file demands created through the
     Defense Clearance and Investigations Index or the File Control Management
     System and their related application sub-processes. The Central Intelligence
     Agency External Interface application results in the creation and reading of a
     data tape that is either sent to the Central Intelligence Agency or received from
     the Central Intelligence Agency for processing.

External Interface to the Federal Bureau of Investigation
     The External Interface to the Federal Bureau of Investigation is a batch
     computer application process that involves operator-assisted manual actions and
     automated computer actions. The Federal Bureau of Investigation conducts
     three types of checks for DSS as part of the personnel investigation process.
     Requests for information come from CCMS leads that generate Federal Bureau
     of Investigation identification fingerprint card check, name check, and combined
     name and fingerprint card check requests. The Federal Bureau of Investigation
     External Interface application results in the creation and reading of a data tape
     that is either sent to the Federal Bureau of Investigation or received from the
     Federal Bureau of Investigation for processing.

Navy Joint Adjudication and Clearance System
     The Navy Joint Adjudication and Clearance System is hosted on the CCMS and
     Enterprise System server and, in conjunction with the DSS corporate database,
     contains personnel security data on all Department of the Navy and Marine
     Corps military and civilian personnel and Coast Guard military personnel. The
     Navy Joint Adjudication and Clearance System also serves as an internal case
     management system that supports the day-to-day operations of the Navy’s
     central adjudication facility. Message traffic generated by the system informs
     recipient commands on the status of security clearance requests or final results
     of personnel security determinations. Additionally, the Navy Joint Adjudication
     and Clearance System provides data management and analysis reports, audit
     trails, and historical case-tracking information.




                                        24
Appendix D. Enterprise System High Level
            Process View




                         LEGEND
          CIA    Central Intelligence Agency
          CCMS   Case Control Management System
          DCII   Defense Clearance and Investigations Index
          DM     Document Management
          DS     Device Server
          EI     External Interface
          EPSQ   Electronic Personnel Security Questionnaire
          FASS   Files Automation and Scanning Subsystem
          FBI    Federal Bureau of Investigation
          FIMS   Field Information Management System
          ISS    Industrial Security System
          RFA    Report for Adjudication
          WFS    Workflow Server
          WFU    Workflow User




                            25
Appendix E. Status of TRW Inc., Recommendations
            by Priority Ranking
Priority      TRW Recommendations                                               Status
   1.         Establish and operate a program management office organization   Complete
   2.         Manage CCMS recover and sustainment                              Complete
   3.         Manage replacement systems acquisition                           In-Progress
   4.         Institute formal flow control of the CCMS Workflow tool          In-Progress
   5.         Develop a more appropriate year 2000 test environment            Complete
   6.         Upgrade infrastructure baseline                                  In-Progress
   7.         Upgrade and/or replace workflow product                          In-Progress
   8.         Develop concept of operations and requirements specification     In-Progress
              documents
   9.         Eliminate the use of “route-back” within CCMS workflows          In-Progress
   10.        Establish an integrated DSS Enterprise Systemwide action team    Complete
   11.        Develop a high level workflow performance model                  In-Progress
   12.        Establish a replacement system acquisition strategy              In-Progress
   13.        Investigate upgrading the database management system             In-Progress
   14.        Use contractor facilities for year 2000 testing                  Complete
   15.        Evaluate the utility of manually archiving data                  In-Progress
   16.        Analyze and optimize CCMS/Files Automation and Scanning          In-Progress
              Subsystem configuration to reduce instability
   17.        Evaluate rebalancing workload on Digital Equipment Corporation   In-Progress
              8400 computers and Oracle databases
   18.        Evaluate other methods to reduce CCMS/Files Automation and       Contingent1
              Scanning Subsystem instability
   19.        Develop a more robust CCMS/Files Automation and Scanning         In-Progress
              Subsystem interface
   20.        Reduce number of overhead functions associated with each         In-Progress
              workflow task



   1
       Implementation depends on results of another TRW recommendation.




                                                   26
Priority      TRW Recommendations                                                    Status
      21.     Correct errors in request-for-adjudication processing                 In-Progress
      22.     Implement general hardware recommendations                            In-Progress
      23.     Upgrade microfiche scanning processes to increase reliability         In-Progress
      24.     Evaluate additional Document Management Export debugging              Contingent1
              strategies
      25.     Enhance Document Management Export error recovery                     In-Progress
      26.     Investigate the effect of more powerful central processing units      Complete
      27.     Improve the paper-based request for adjudication process              In-Progress
      28.     Evaluate and expedite fixes for current known data integrity problems In-Progress
      29.     Implement database configuration changes to optimize performance      In-Progress
      30.     Analyze performance requirements for system improvements              In-Progress
      31.     Identify and collect performance metrics                              In-Progress
      32.     Implement backup and restore capability                               Pending2
      33.     Investigate electronic dissemination of requests for adjudication     Complete
      34.     Implement percentage of items awaiting operator action as basis for   In-Progress
              workflow performance
      35.     Implement improved manual case entry process                          Complete
      36.     Perform routine backups of databases, mailboxes, queues, relevant     Pending2
              directories and files
      37.     Plan for long-term system maintenance                                 In-Progress




  1
      Implementation depends on results of another TRW recommendation.
  2
      Action will be resourced when funding becomes available.




                                                   27
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Security and Information Operations)
  Director, Information Technology Acquisition and Investments

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Security Service
   Inspector General, Defense Security Service
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organization
Office of Management and Budget




                                       28
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                     29
Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments




                     31
Defense Security Service Comments




                                                                                                 *




*
    Appropriate corrections were made to the final report. (Table not included in this report)


                                                     32
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General
for Auditing, DoD, prepared this report.

Thomas F. Gimble
Mary Lu Ugone
Charles M. Santoni
David M. Wyte
Steven J. Bressi
Donald Stockton
Robert R. Johnson
Walter S. Bohinski
